U.S. Department of Justice
Office of the Inspector General




Report to Congress on Implementation
of Section 1001 of the USA PATRIOT Act
    (as required by Section 1001(3) of Public Law 107-56)




                                         August 2013
        Section 1001 of the USA PATRIOT Act (Patriot Act), Public Law 107-56,
directs the Office of the Inspector General (OIG) of the U.S. Department of
Justice (DOJ or Department) to undertake a series of actions related to claims
of civil rights or civil liberties violations allegedly committed by DOJ employees.
It also requires the OIG to provide semiannual reports to Congress on the
implementation of the OIG’s responsibilities under Section 1001. This report,
the 23nd since enactment of the legislation in October 2001, summarizes the
OIG’s Section 1001-related activities from January 1, 2013, through June 30,
2013.


I. INTRODUCTION

      The OIG is an independent entity within the DOJ that reports to both the
Attorney General and Congress. The OIG’s mission is to investigate allegations
of waste, fraud, and abuse in DOJ programs and personnel and to promote
economy and efficiency in DOJ operations.

      The OIG has jurisdiction to review programs and personnel in all DOJ
components, including the Federal Bureau of Investigation (FBI), the Drug
Enforcement Administration (DEA), the Federal Bureau of Prisons (BOP), the
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF), the U.S. Marshals
Service (USMS), and the U.S. Attorneys’ Offices. 1

       The OIG consists of the Immediate Office of the Inspector General and
the following divisions and offices:

       •   Audit Division conducts independent audits of Department
           programs, computer systems, and financial statements.

       •   Evaluation and Inspections Division conducts program and
           management reviews that involve on-site inspection, statistical
           analysis, and other techniques to review Department programs and
           activities and make recommendations for improvement.

       •   Investigations Division investigates allegations of bribery, fraud,
           abuse, civil rights violations, and violations of other criminal laws and
           administrative procedures that govern Department employees,
           contractors, and grantees.


       1  The OIG has authority to investigate allegations of criminal wrongdoing or
administrative misconduct by any Department employee, except for “allegations of misconduct
involving Department attorneys, investigators, or law enforcement personnel, where the
allegations relate to the exercise of the authority of an attorney to investigate, litigate, or
provide legal advice." 5 U.S.C. App. 3 § 8E(b)(2)-(3).



Office of the Inspector General, U.S. Department of Justice                         Page 1
      •   Oversight and Review Division blends the skills of attorneys,
          investigators, and program analysts to investigate or review high
          profile or sensitive matters involving Department programs or
          employees.

      •   Management and Planning Division provides planning, budget,
          finance, personnel, training, procurement, automated data
          processing, computer network communications, and general support
          services for the OIG.

      •   Office of General Counsel provides legal advice to OIG management
          and staff. In addition, the office drafts memoranda on issues of law;
          prepares administrative subpoenas; represents the OIG in personnel,
          contractual, and legal matters; and responds to Freedom of
          Information Act requests.

      The OIG has a staff of approximately 420 employees, about half of whom
are based in Washington, D.C., while the rest work from 16 Investigations
Division field and area offices and 6 Audit Division regional offices located
throughout the country.


II. SECTION 1001 OF THE PATRIOT ACT

      Section 1001 of the Patriot Act provides the following:

             The Inspector General of the Department of Justice shall
             designate one official who shall ―

             (1)   review information and receive complaints alleging abuses
                   of civil rights and civil liberties by employees and officials
                   of the Department of Justice;

             (2)   make public through the Internet, radio, television,
                   and newspaper advertisements information on the
                   responsibilities and functions of, and how to contact, the
                   official; and

             (3)   submit to the Committee on the Judiciary of the House
                   of Representatives and the Committee on the Judiciary of
                   the Senate on a semi-annual basis a report on the
                   implementation of this subsection and detailing any
                   abuses described in paragraph (1), including a description
                   of the use of funds appropriations used to carry out
                   this subsection.



Office of the Inspector General, U.S. Department of Justice                Page 2
III. CIVIL RIGHTS AND CIVIL LIBERTIES COMPLAINTS

       Section 1001 requires the OIG to “review information and receive
complaints alleging abuses of civil rights and civil liberties by employees and
officials of the Department of Justice.”

      The OIG’s Investigations Division manages the OIG’s Section 1001
investigative responsibilities. The two units with primary responsibility for
coordinating these activities are Operations Branch I and Operations Branch II,
each of which is directed by a Special Agent in Charge and two Assistant
Special Agents in Charge (ASAC). 2 In addition, these units are supported by
Investigative Specialists and other staff assigned to the Investigative Support
Branch, who divide their time between Section 1001 and other responsibilities.

       The Investigations Division receives civil rights and civil liberties
complaints via mail, e-mail, telephone, and facsimile. Upon receipt, Division
ASACs review the complaints and assign an initial disposition to each matter,
and Investigative Specialists enter the complaints alleging a violation within the
investigative jurisdiction of the OIG or another federal agency into an OIG
database. Serious civil rights and civil liberties allegations relating to actions
of DOJ employees or contractors are typically assigned to an OIG Investigations
Division field office, where special agents conduct investigations of criminal
violations and administrative misconduct. 3 Occasionally, complaints are
assigned to the OIG’s Oversight and Review Division for investigation.

       Given the number of complaints OIG receives compared to its limited
resources, the OIG does not investigate all allegations of misconduct against
DOJ employees. The OIG refers many complaints involving DOJ employees to
internal affairs offices in DOJ components such as the FBI Inspection Division,
the DEA Office of Professional Responsibility, and the BOP Office of Internal
Affairs. In certain referrals, the OIG requires the components to report the
results of their investigations to the OIG. In most cases, the OIG notifies the
complainant of the referral.

      Many complaints the OIG receives involve matters outside its
jurisdiction, and when those matters identify a specific issue for investigation,

        2 These units also coordinate the OIG’s review of allegations of misconduct by

Department employees: the Operations Branch I has primary responsibility for matters
involving the BOP, USMS, and the U.S. Attorney’s Offices; the Operations Branch II has
primary responsibility for matters involving the FBI, DEA, and ATF.
       3   The OIG can pursue an allegation either criminally or administratively. Many OIG
investigations begin with allegations of criminal activity but, as is the case for any law
enforcement agency, do not result in prosecution. When this occurs, the OIG may continue the
investigation and treat the matter as a case for potential administrative discipline. The OIG’s
ability to handle matters criminally or administratively helps to ensure that a matter can be
pursued administratively even if a prosecutor declines to prosecute a matter.



Office of the Inspector General, U.S. Department of Justice                        Page 3
the OIG forwards them to the appropriate investigative entity. For example,
complaints of mistreatment by airport security staff or by the Border Patrol are
sent to the Department of Homeland Security OIG. The DOJ OIG also has
forwarded complaints to the Offices of Inspectors General at the Department of
Health and Human Services, the Department of Veterans Affairs, and the
Department of Education. Allegations related to the authority of a DOJ
attorney to litigate, investigate, or provide legal advice are referred to the DOJ
Office of Professional Responsibility. Allegations related solely to state and
local law enforcement or government officials that raise a federal civil rights
concern are forwarded to the DOJ Civil Rights Division.

       When an allegation received from any source involves a potential
violation of federal civil rights statutes by a DOJ employee, the OIG discusses
the complaint with the DOJ Civil Rights Division for possible prosecution. In
some cases, the Civil Rights Division accepts the case and requests additional
investigation by either the OIG or the FBI. In other cases, the Civil Rights
Division declines prosecution and either the OIG or the appropriate DOJ
internal affairs office reviews the case for possible administrative misconduct.

   A. Complaints Processed During This Reporting Period

      Between January 1, 2013 and June 30, 2013, the period covered by this
report, the OIG processed 515 new civil rights or civil liberties complaints. 4

      Of these complaints, 444 did not fall within the OIG’s jurisdiction or did
not warrant further investigation. The vast majority (386) of these complaints
involved allegations against agencies or entities outside the DOJ, including
other federal agencies, local governments, or private businesses. When
possible, the OIG referred those complaints to the appropriate entity or advised
complainants of the entity with jurisdiction over their allegations. Some
complaints (58) raised allegations that were not suitable for investigation by the
OIG and could not be referred to another agency for investigation, generally
because the complaints failed to identify a subject or agency.

      The OIG found that the remaining 71 of the 515 complaints it received
involved DOJ employees or DOJ components and included allegations that
required further review. The OIG determined that 64 of these complaints
raised management issues generally unrelated to the OIG’s Section 1001 duties
and, consequently, referred these complaints to DOJ components for
appropriate handling. Examples of complaints in this category included
allegations by federal prisoners about the general prison conditions and by
others that the FBI did not initiate an investigation into particular allegations.

         4 These complaints include all matters in which the complainant made any mention of

a civil rights or civil liberties violation, even if the allegation was not within the OIG’s
jurisdiction.



Office of the Inspector General, U.S. Department of Justice                       Page 4
       The OIG identified a total of 7 complaints warranting further
investigation to determine whether Section 1001-related abuses occurred. The
OIG investigated 1 of the complaints and referred the other 6 complaints to the
BOP for further investigation. The next section of this report describes the
substance of these 7 complaints. Notably, none of the complaints processed
during this reporting period specifically alleged misconduct by DOJ employees
relating to the use of authorities contained in the Patriot Act.

      The following is a synopsis of the new complaints processed during this
reporting period involving DOJ employees or components, including allegations
requiring further review:


      Complaints processed                               515

      Complaints not within OIG’s
      jurisdiction or not warranting further review      444

      Total complaints within OIG’s
      jurisdiction warranting review                      71

      Management issues referred to
      DOJ components for handling                         64

      Possible Section 1001 complaints
      warranting investigation by OIG                         1

      Possible Section 1001 complaints
      warranting investigation by DOJ components              6


   B. Section 1001 Complaints

      1. Investigations Opened During This Reporting Period

      During this reporting period, the OIG opened 1 Section 1001-related
      investigation, which remains pending, and referred 6 Section 1001-
      related complaints to the BOP for investigation. BOP completed
      investigations of 1 of the complaints opened during this period; its
      investigations of the remaining 5 complaints remain pending. The OIG
      has requested that, upon completion of the investigation of each referred
      complaint, BOP provide the OIG a copy of its investigative report.




Office of the Inspector General, U.S. Department of Justice           Page 5
         a. OIG Investigation

            •   A BOP inmate alleged that correctional officers told him he
                would be denied work privileges unless he shaved off his beard
                and denounced Islam, warned him that correctional officers
                could harm him and other “terrorist” inmates in the prison
                chapel, and expressed their desire for “terrorists” at the facility
                to be killed.

         b. Continuing BOP Investigations

            •   A BOP inmate alleged that a BOP Intelligence Research
                Specialist discriminated against him based on his religion. The
                inmate alleged that the employee referred to a Muslim prayer in
                a derogatory manner, mocked the traditional Muslim greeting,
                and referred to Muslim inmates as “terrorists” and
                “fundamentalists.” The inmate also alleged that the employee
                has repeatedly called him “Osama bin Laden” and mocked him
                for wearing a beard.

            •   A BOP inmate alleged that several correctional officers referred
                to him using a racial and ethnic slur, and threatened to kill him
                because he asked why his food tray was not delivered on time.

            •   A BOP inmate alleged that a BOP chaplain was “anti-Muslim”
                and that the chaplain directed him to leave the chapel in the
                middle of Muslim services, denied him access to the Muslim
                service for three weeks, denied him lunch during Ramadan, and
                denied him a religious diet. According to the inmate, he
                conducted a hunger strike for 18 days until he was transferred
                to another facility, but was transferred back to the same facility
                19 days later, where he alleged the chaplain’s discrimination
                continued.

            •   A BOP inmate alleged that a correctional officer openly mocked
                the Islamic faith and interfered with Muslim inmates practicing
                their religion. The inmate alleged that the correctional officer
                threatened to take disciplinary action against him if he
                performed the Muslim call to prayers, or prayed with or at the
                same time as other Muslims.

            •   A BOP inmate alleged that, after he and other Muslim inmates
                completed their prayers, a correctional officer told him that the
                inmates would receive incident reports because “terrorists” were
                not allowed to pray and lacked rights. The correctional officer




Office of the Inspector General, U.S. Department of Justice               Page 6
                allegedly also characterized the inmates as “future Taliban
                members.”

         c. Closed BOP Investigation

            •   A BOP inmate alleged that following a search of his cell, he
                discovered that his prescription eyeglasses were missing, his
                photo album was destroyed, and pages had been torn out of his
                Koran. When interviewed by the BOP, the correctional officer
                identified by the inmate as having conducted the search stated
                that he did not recall searching the inmate’s cell and denied
                destroying any inmate’s Koran, personal photographs, or
                prescription eyeglasses. Another correctional officer interviewed
                by the BOP recalled the search but stated that he removed
                unauthorized magazine photographs from the walls of the cell
                and confiscated an item of altered clothing, but denied that any
                correctional officer destroyed the inmate’s Koran, personal
                photographs, or prescription eyeglasses. The investigation also
                found that the inmate falsely claimed to have submitted certain
                documentation to the Warden prior to reporting these
                allegations. The inmate refused to make a statement to BOP
                investigators and provided no further physical evidence to
                support his allegations. BOP determined that the allegations
                were not substantiated and closed its investigation.

      2. Pending Investigations Opened During Previous Reporting
         Periods

         a. Complaints Referred to BOP

            The OIG referred the following 4 complaints to the BOP for
            investigation during a prior reporting period; the investigations
            remain open. The OIG has requested that BOP provide a copy of
            its investigative report upon completion of the investigation of each
            referred complaint.

            •   A BOP inmate alleged that after he filed a grievance against a
                BOP chaplain for allegedly interfering with his right to practice
                the Islamic faith, the chaplain then accused the inmate of
                “starting a terrorist cell,” resulting in the inmate being placed in
                segregated housing. The inmate also alleged that after filing
                another grievance alleging retaliation, he was again sent to
                segregated housing. Additionally, the inmate alleged that after
                an internal investigation at the prison determined that the
                allegations against him were false, the BOP took no action




Office of the Inspector General, U.S. Department of Justice               Page 7
                against the staff and instead transferred the inmate twice,
                leaving him thousands of miles from his family.

            •   A BOP inmate alleged that a correctional officer used profanity
                towards inmates and treated black Muslim inmates harshly
                because of their religious beliefs. The inmate also alleged that
                BOP staff intentionally destroyed his written correspondence.

            •   An inmate alleged that a BOP correctional officer harassed
                Muslim inmates and interfered with their attendance at
                religious services. The inmate further alleged that the
                correctional officer made hostile and harassing sexual
                comments to the inmates and touched them in an inappropriate
                manner.

            •   A BOP inmate alleged that a correctional officer was passing out
                Ramadan meals without bread. When several inmates asked
                the correctional officer to call food service for the bread, he
                responded by expressing unwillingness to accommodate the
                religious needs of the Muslim inmates. The inmate also alleged
                that the correctional officer refused to give him his mail.

      3. Previously Opened Investigations Closed During This Reporting
         Period

      The OIG completed its investigations of 1 Section 1001-related matter
      opened in a prior period. Additionally, the BOP completed investigations
      of 6 Section 1001-related complaints previously referred by the OIG in
      prior periods. Upon completion of the investigation of each referred
      complaint, the BOP provided the OIG a copy of its investigative report.

         a. Closed OIG Investigation

            •   A BOP inmate alleged that a cook supervisor and a correctional
                officer harassed inmates who were practicing religious
                observances during Ramadan. The inmate alleged that the
                employees approached him and other Muslim inmates and
                threw their religious meals into the garbage while uttering racial
                slurs. The inmate alleged that the cook supervisor has racist
                attitudes towards black and Muslim inmates and has openly
                expressed them. During an interview with the OIG, the inmate
                repeated his allegations and added that several other Muslim
                inmates were attempting to remove contraband food items from
                the kitchen when his food items were confiscated. The inmate
                stated that he had heard the cook supervisor make racist
                remarks in the past but could not provide the OIG with specific


Office of the Inspector General, U.S. Department of Justice             Page 8
                examples. He also stated that the correctional officer was not
                directly involved in the food confiscation and that he did not
                recall the correctional officer making any specific racial remarks
                during the confiscation. The OIG interviewed the cook
                supervisor and correctional officer, both of whom acknowledged
                that unauthorized food items had been confiscated but denied
                discriminating against any inmates, making discriminatory
                remarks to inmates, or hearing other employees make such
                remarks. The OIG determined that the allegations were not
                substantiated and closed its investigation.

         b. Closed BOP Investigations

            •   A BOP inmate alleged that the inmate’s correctional institution
                discriminates against Muslim inmates. The inmate alleged that
                the institution does not employ a Muslim chaplain and has not
                attempted to find one; that Muslim inmates are prohibited from
                studying together, from studying outside of their assigned cells,
                and from praying at work; and that other religious groups are
                permitted to receive religious materials from volunteers and
                guests but Muslim inmates are not. The inmate further alleged
                that Muslims face a hostile environment at the institution and
                noted that other inmates have previously filed similar
                complaints alleging harassment, retaliation, and discrimination
                against the same institution. In an interview with the BOP, the
                inmate added that prayer time and programming for Muslims
                had not increased even though the institution had hired an
                additional chaplain. The BOP interviewed the Supervisory
                Chaplain, who denied discriminating against the inmate or any
                faith group and stated that the institution’s policies regarding
                group prayer for all religious denominations were consistent
                with recommendations contained in the BOP Inmate Beliefs and
                Practice Reference Manual. In a memorandum to the Warden
                responding to the inmate’s allegations, the Supervisory
                Chaplain additionally stated that, consistent with BOP
                directives, he would consider adding additional religious
                programming after the newly-hired chaplain had completed the
                standard training period. BOP determined that the allegations
                were not substantiated and closed its investigation.

            •   A BOP inmate alleged that a correctional officer exhibits a
                pattern of racist and discriminatory behavior toward him and
                other Muslim inmates by harassing them, “trashing” their cells,
                and repeatedly singling them out for cell searches, yet treats
                non-Muslim inmates with respect. BOP investigators reviewed
                the cell search log for the time period identified and found no


Office of the Inspector General, U.S. Department of Justice             Page 9
                evidence to suggest or confirm that the correctional officer had
                searched Muslim inmates’ cells more often than other inmates’
                cells. Nor did BOP find evidence to corroborate the allegations
                that the correctional officer had left the complainant’s cell in
                disarray. The correctional officer denied the allegations in a
                sworn affidavit. BOP determined that the allegations were not
                substantiated and closed its investigation.

            •   Three BOP inmates alleged that two correctional officers acted
                unprofessionally while they were escorting the inmates from
                religious services to their housing units during Ramadan.
                Allegedly, one of the correctional officers made comments about
                killing Muslims when he was overseas, and the other
                correctional officer compared Muslims to dogs and stated that
                he hated dogs. All three inmates refused to complete a sworn
                affidavit and one inmate refused to be interviewed. During
                interviews with BOP, the correctional officers each stated that
                one or more inmates engaged them in a conversation about
                differences among individuals of the Muslim faith, but denied
                acting unprofessionally, specifically denied the allegations made
                against them, and denied seeing or hearing the other officer do
                or say anything unprofessional. BOP determined that the
                allegations were not substantiated and closed its investigation.

            •   A BOP inmate alleged that a correctional officer insulted him
                and his religion by making harsh and derogatory statements to
                him about his headdress, deliberately mispronouncing the
                name “Allah,” and boasting of military action taken by the
                United States in the Middle East. During an interview with
                BOP, the correctional officer denied the allegations and stated
                that he does not engage in religious conversations with inmates.
                An inmate identified by the complainant as a witness recalled
                the correctional officer talking to a Muslim inmate about a smell
                coming from his kufi and saying that the inmate would not
                make it in the Middle East. However, two other inmates
                identified by the complainant as witnesses refused to be
                interviewed or provide sworn affidavits, and a correctional
                officer who allegedly witnessed the incident stated that he did
                not recall the conversation described by the inmate and had
                never witnessed the subject correctional officer saying anything
                unprofessional toward any Muslim inmate. BOP determined
                that the allegations were not substantiated and closed its
                investigation.

            •   A BOP inmate alleged that a correctional officer used a racial
                slur, confiscated his kufi for no reason, and referred to the kufi


Office of the Inspector General, U.S. Department of Justice              Page 10
                as a “terrorist cap.” The inmate further alleged that two other
                correctional officers witnessed the correctional officer threaten
                and approach the inmate in an aggressive manner. During an
                interview with BOP, the subject correctional officer denied the
                allegations, stating that he is typically assigned elsewhere at the
                time of day when the incident allegedly took place and that he
                did not recall any incidents with an inmate in the room the
                complainant identified. Neither of the two correctional officer
                witnesses recalled the alleged incident. BOP concluded the
                allegations were not substantiated and closed its investigation.

            •   A Muslim inmate alleged that: his religious diet was suspended;
                he was placed in “racial segregation” because of lies fabricated
                by the BOP chaplain and his assistant; BOP staff tampered with
                his legal mail and obstructed calls to his attorneys; BOP staff
                censured his participation during Islamic services and studies;
                the BOP inappropriately classified him as an international
                terrorist; and a BOP lieutenant told him that the prison staff
                hated him. The BOP investigation found that: (1) the inmate’s
                participation in Religious Diet Program had been suspended for
                30 days due to violations of program rules but was
                subsequently reinstated; (2) the inmate had been designated a
                Security Threat Group assignment of International Terrorist
                assigned to the Special Housing Unit based on his conviction for
                conspiracy to kill, kidnap, maim, and injure persons outside of
                the United States and distribute information about explosives,
                and based on his having received training for violent Jihad in
                Iraq; (3) the inmate had been transferred to a Communications
                Management Unit because he continuously attempted to
                circumvent standard procedures, based on his Security Threat
                Group assignment, to monitor his communications and
                correspondence; (4) the inmate had successfully mailed
                outgoing legal mail on numerous occasions, had 16 attorneys
                listed on his approved phone list, and had access to attorneys
                consistent with policy; (5) the inmate’s 28 requests for
                administrative remedies had all been logged and processed; and
                (6) the inmate had been allowed to continue to practice his
                faith, although he had been restricted from actively teaching or
                demonstrating religious authority to other inmates due to his
                “radical behavior” during religious studies. The BOP lieutenant
                denied making the alleged comments about the prison staff
                hating the inmate. BOP concluded the allegations were not
                substantiated and closed its investigation.




Office of the Inspector General, U.S. Department of Justice              Page 11
IV. OTHER ACTIVITIES RELATED TO POTENTIAL CIVIL RIGHTS
    AND CIVIL LIBERTIES ISSUES

       The OIG conducts other reviews that go beyond the explicit requirements
of Section 1001 in order to implement more fully its civil rights and civil
liberties oversight responsibilities. The OIG has completed or is conducting
several such reviews that relate to the OIG’s duties under Section 1001. These
reviews are discussed in this section of the report.

   A. Audit of the FBI’s Foreign Terrorist Tracking Task Force

      In March 2013, the OIG issued an audit report of the FBI’s Foreign
Terrorist Tracking Task Force (FTTTF). The objectives of this audit were to
determine whether the FBI: (1) had implemented a viable FTTTF strategy to
locate and track suspected terrorists and their supporters, including
coordination with FBI headquarters and field offices to enhance national
security investigations; and (2) was following Department privacy policies in its
management of information.

      The OIG’s audit found that the FTTTF provides significant value to the
FBI by proactively identifying national security threats. However, the OIG
determined that prior to FY 2011 limited coordination existed between the
FTTTF and the FBI’s National Security Branch operational divisions, such as
the Counterterrorism Division and the Counterintelligence Division. The
FTTTF improved its coordination since FY 2011, particularly through the
assignment of FTTTF personnel to the Counterterrorism Division.

       The audit also found that the FTTTF did not always provide FBI field
offices with timely, relevant, and valuable information, and that many field
office Special Agents and Intelligence Analysts were not fully aware of the
FTTTF’s capabilities. Without such an understanding, FBI field personnel may
not use the FTTTF’s valuable analytical capabilities to the fullest extent
possible to best further the FBI’s national security mission.

       Additionally, the audit found that while the FTTTF had implemented
many privacy-related policies and procedures for handling national security
information and other sensitive information, the FTTTF had not completely
satisfied Department requirements related to the transparency of its
information systems under the Privacy Act and E-Government Act. Specifically,
between 2008 and 2012, the FTTTF did not submit an updated System of
Records Notice or Privacy Impact Assessment to the Department’s Office of
Privacy and Civil Liberties. During the review, the FBI submitted a System of
Records Notice, which received final approval in July 2012.

      The OIG made seven recommendations to the FBI to improve the FTTTF’s
operations, and the FBI agreed with all seven recommendations.


Office of the Inspector General, U.S. Department of Justice             Page 12
   B. Review of the Department’s Use of Material Witness Warrants

        The OIG is reviewing the Department’s use of the material witness
warrant statute, 18 U.S.C. § 3144. Pursuant to the OIG’s responsibility under
Section 1001 of the Patriot Act, the OIG is investigating whether the
Department’s post-9/11 use of the statute in national security cases violated
civil rights and civil liberties. The OIG is also examining the Department’s
controls over the use of material witness warrants and trends in the use of
material witness warrants over time, as well as issues such as length of
detention, conditions of confinement, and access to counsel.

   C. Review of the FBI’s Use of National Security Letters, Section 215
      Orders, and Pen Register and Trap-and-Trace Authorities under the
      Foreign Intelligence Surveillance Act from 2007 through 2009

       The OIG is again examining the FBI’s use of national security letters
(NSL) and Section 215 orders for business records. Among other issues, this
review is assessing the FBI’s progress in responding to the OIG’s
recommendations in its 2007 and 2008 reports on the FBI’s use of NSLs, and
in its 2010 report on the FBI’s use of exigent letters and other informal
requests for telephone records. A focus of this review is the NSL subsystem, an
automated workflow system for NSLs that all FBI field offices and Headquarters
divisions have been required to use since January 1, 2008, and the
effectiveness of the subsystem in reducing or eliminating noncompliance with
applicable authorities. The current review is also examining the number of
NSLs issued and Section 215 applications filed by the FBI between 2007 and
2009, and any improper or illegal uses of these authorities. In addition, the
review is examining the FBI’s use of its pen register and trap-and-trace
authority under the Foreign Intelligence Surveillance Act.

   D. Audit of the FBI’s Management of Terrorist Watchlist Nominations
      and Encounters with Watchlisted Subjects

       The OIG is continuing its audit of the FBI’s management of terrorist
watchlist nominations. In fiscal years 2008 and 2009, the OIG conducted two
audits related to the FBI terrorist watchlist nomination processes and
practices. In these audits, the OIG found that the FBI’s procedures for
processing international terrorist nominations were, at times, inconsistent and
insufficient, causing watchlist data used by screening agencies to be
incomplete and outdated. The OIG found that the FBI failed to nominate for
watchlisting many subjects of its terrorism investigations, did not nominate
many others in a timely manner, and did not update or remove watchlist
records as required. As a result of these reviews, the FBI reported that it had
undertaken several initiatives and implemented new processes and guidelines
to enhance its watchlisting system.




Office of the Inspector General, U.S. Department of Justice           Page 13
      The objectives of the current audit are to assess the impact on the FBI’s
watchlisting system of the attempted terrorist attack on an airplane on
December 25, 2009, and to evaluate the effectiveness of initiatives implemented
by the FBI over the last 3 years to ensure the accuracy, timeliness, and
completeness of the FBI’s watchlisting practices, including watchlist
nominations and removals.

   E. Audit of the Department’s Use of and Support for Unmanned Aircraft
      Systems

        The OIG is conducting an audit of the Department’s domestic use of and
support for unmanned aircraft systems (UAS). The audit will assess the
Department’s direct use of or grant support for UAVs, including any research
and deployment efforts by the Department’s law enforcement components. It
will also evaluate any applicable Department policies, guidelines, controls, or
restrictions relating to UAVs, including those that relate to privacy rights and
civil liberties.


V. EXPENSE OF IMPLEMENTING SECTION 1001

      Section 1001 requires the OIG to include in this report “a description of
the use of funds appropriations used to carry out this subsection.”

       During this reporting period, the OIG spent approximately $736,648 in
personnel costs, $874 in travel costs, and $100 in miscellaneous costs, for a
total of $737,622 to implement its responsibilities under Section 1001. The
total personnel and miscellaneous costs reflect the time and funds spent by
OIG special agents, attorneys, auditors, inspectors, program analysts, and
paralegals who have worked directly on investigating Section 1001-related
complaints, conducting special reviews, implementing the OIG’s responsibilities
under Section 1001, and overseeing such activities.




Office of the Inspector General, U.S. Department of Justice            Page 14
